                                 UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF INSPECTOR GENERAL

                                                                                                            Audit Services
                                                                                          Chicago/Kansas City Audit Region


                                                           August 1, 2007

                                                                                                    Control Number
                                                                                                    ED-OIG/A07G0012


Mr. Peter C. Mitchell
Chief Executive Officer
Vatterott College
10257 St. Charles Rock Road
St. Ann, MO 63074

Dear Mr. Mitchell:

This Final Audit Report, entitled Vatterott College Omaha’s Compliance with Selected
Provisions of the Higher Education Act of 1965 and Corresponding Regulations, presents the
results of our audit. The objectives of the audit were to determine whether Vatterott College,
Omaha, Nebraska (College), complied with the Higher Education Act of 1965, as amended
(HEA), and regulations governing (1) institutional eligibility, (2) program eligibility, and (3)
return of Title IV, HEA program funds. Our audit covered the period July 1, 2004, through June
30, 2005 (2004-2005 award year).


                                                         BACKGROUND



Vatterott College (Vatterott) operates 19 private career colleges in 9 states, including the college
we audited, Vatterott College, in Omaha-Spring Valley, Nebraska. The corporate office is
located in St. Ann, Missouri. Vatterott is accredited through the Accrediting Commission of
Career Schools and Colleges of Technology (ACCSCT).

Vatterott was founded in 1969 in St. Louis, Missouri, as Urban Technical Centers, Inc. The
name was changed to Vatterott in 1989. Wellspring Capital Management LLC purchased
Vatterott in January 2003.

According to the National Student Loan Data System (NSLDS), the College received funding
from the Federal Pell Grant (Pell) and William D. Ford Federal Direct Loan (FDL) programs for
the 2004-2005 award year as follows:


 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
Final Report
ED-OIG/A07G0012                                                                     Page 2 of 17

       Pell                  $1,249,218             490 recipients
       FDL                    3,516,658             542 recipients
       Total Funding         $4,765,876

The total number of unduplicated recipients of Title IV, HEA program funding during the 2004-
2005 award year was 610.


                                      AUDIT RESULTS



The College complied with the requirements governing institutional eligibility and program
eligibility. However, the College did not comply with the requirements governing the return of
Title IV, HEA program funds. As a result, the College returned to the Title IV, HEA programs
$37,964 less than it should have returned during the 2004-2005 award year.

In its comments to the draft report, the College concurred that it did not calculate the correct
amount of Title IV, HEA program funds earned by students. However, the College did not
concur with the liability we calculated, that it determined students’ withdrawal dates in an
untimely manner, or that it returned Title IV, HEA program funds in an untimely manner. After
reviewing the College’s comments, we revised the liability amount and revised the
recommendations.

The College’s comments are summarized at the end of the finding, and the text of the comments
is included as an attachment to the report. Because the appendices to the College’s comments
were voluminous, we have not included them in the attachment (copies of the appendices are
available on request).

FINDING - The College Did Not Comply with the Requirements Governing the Return of
          Title IV, HEA Program Funds

During the 2004-2005 award year, the College did not (1) calculate the correct amount of Title
IV, HEA program funds that students earned, (2) determine students’ withdrawal dates in a
timely manner, and (3) return Title IV, HEA program funds in a timely manner.

Incorrect Calculation of the Amount to Return to the Title IV, HEA Programs

The College did not use the correct withdrawal date to determine the amount of Title IV, HEA
program funds that students earned. We reviewed the records for all 222 students who the
College identified as having dropped out during the 2004-2005 award year. The College did not
use the correct withdrawal date for 105 of the 222 students.
Final Report
ED-OIG/A07G0012                                                                                      Page 3 of 17

The College is required to take attendance by the State of Nebraska.1 According to 34 C.F.R.
§ 668.22(b)(3)(i),2 “[a]n institution is required to take attendance if an outside entity . . . has a
requirement, as determined by the entity, that the institution take attendance.” Under 34 C.F.R.
§ 668.22(b)(1), the withdrawal date for a student who withdraws from an institution that is
required to take attendance “is the last date of academic attendance as determined by the
institution from its attendance records.”

The College did not use the correct withdrawal date to determine the amount of Title IV, HEA
program funds that students earned. Though the College did take attendance, school officials
stated that they believed the College was not required to take attendance, and the College’s
policy for determining the withdrawal date was based on the requirements for an institution that
is not required to take attendance.

According to the College’s policy, the withdrawal date was (1) the date of the student’s written
notification; (2) the date related to circumstance beyond the student’s control; (3) the midpoint of
the payment period; or (4) the student’s last date of attendance. We were told by the College’s
Regional Financial Aid Director that, for unofficial withdrawals, the College used the midpoint
to calculate a student’s refund if the student left before the midpoint, and that the College used
the student’s actual last date of attendance if the student left after the midpoint. The Regional
Financial Aid Director also said that, for official withdrawals, the College used the date of the
student’s notification. Our audit testing confirmed the policy described by the Regional
Financial Aid Director.

As a result of using incorrect withdrawal dates, the College incorrectly calculated the amount of
Title IV, HEA program funds that students earned. Of the 105 students for whom the College
used incorrect withdrawal dates, the College incorrectly calculated the amount of Title IV, HEA
program funds that 86 students earned and returned $37,964 less than it should have returned for
those students.

Untimely Determination that Students Withdrew

The College did not determine that students withdrew within 14 days of the students’ last dates
of academic attendance. The College exceeded the 14-day period for 45 of the 67 students for
whom Title IV, HEA program funds were returned. For 3 students, the College determined the
student’s withdrawal date more than 24 days after the student’s last date of attendance.

Dear Colleague Letter GEN-04-03 Revised (November 2004) states

        Except in unusual instances, at an institution that is required to take attendance,
        [the Department of Education] would expect that the date of the institution’s
        determination that the student withdrew would be no later than 14 days after the
        student's withdrawal date—the last date of academic attendance as determined by
        the institution from its attendance records.

1
  Title 92 of the Nebraska Administrative Code, Chapter 41, 004.14F1, states, “The school shall maintain accurate
records of attendance to assist in establishing the last day of attendance of any student enrolled at the school.”
2
  C.F.R. citations in this report are from the July 1, 2004, edition.
Final Report
ED-OIG/A07G0012                                                                                      Page 4 of 17


The College’s Campus Director stated that the College did not make timely determinations
because its policy was based on the understanding that it was not required to take attendance.

Untimely Return of Title IV, HEA Program Funds

The College did not meet the 30-day requirement for the return of Title IV, HEA program funds.
The College returned funds by depositing them in a bank account, but exceeded the 30-day limit
for 11 of 67 students for whom Title IV, HEA program funds were returned. For 7 students, the
College returned the funds more than 40 days after the College made its determination that the
student had withdrawn.

According to 34 C.F.R. § 668.22(j)(1), “[a]n institution must return the amount of title IV funds
for which it is responsible . . . no later than 30 days after the date of the institution’s
determination that the student withdrew . . . .” Pursuant to 34 C.F.R. § 668.173(b)(1), “an
institution returns unearned title IV, HEA funds timely if . . . [t]he institution deposits or
transfers the funds into the bank account it maintains under §668.163 no later than 30 days after
the date it determines that the student withdrew . . . .”

To be compliant with refund reserve standards provided in 34 C.F.R. § 668.173(a)(3), the
College must return funds in a timely manner. Under 34 C.F.R. § 668.173(c)

        An institution does not comply with the reserve standard under §668.173(a)(3) if,
        in a compliance audit conducted . . . by the Office of the Inspector General . . . the
        auditor or reviewer finds . . . [i]n the sample of student records audited or
        reviewed that the institution did not return unearned title IV, HEA program funds
        within the timeframes described in paragraph (b) of this section for 5% or more of
        the students in the sample.

If an institution does not meet this compliance threshold for either of its two most recently
completed fiscal years, it must submit an irrevocable letter of credit to the Department of
Education (Department) as described in 34 C.F.R. § 668.173(d). Because the College exceeded
the 30-day limit for 11 of 67 of students (16.4 percent) during the award year (July 1, 2004,
through June 30, 2005), the College also might have exceeded the compliance threshold for its
corresponding fiscal year (January 1, 2005, through December 31, 2005).

The College’s Campus Director stated that the untimely return of Title IV, HEA program funds
resulted from human oversight. As a result of the College’s not returning $9,177 in Title IV,
HEA program funds in a timely manner, the Department incurred unnecessary interest and
special allowance costs.3




3
 We did not estimate the actual loss to the Department for the 11 returns of Title IV, HEA program funds that the
College failed to make in a timely manner.
Final Report
ED-OIG/A07G0012                                                                        Page 5 of 11

Recommendations

We recommend that the Acting Chief Operating Officer for Federal Student Aid (FSA) require
the College to

1.1	 Return $37,964 to the Department;

1.2	 Review records for all students who dropped out during the 2002-2003, 2003-2004, and
     2005-2006 award years; use the last date of academic attendance as the withdrawal date
     and recalculate the amounts of Title IV, HEA program funds that students earned; and
     return the unearned amounts to the Department;

1.3	 Revise its policy for returning Title IV, HEA program funds to ensure it uses the correct
     withdrawal date in determining the amount of Title IV, HEA program funds that students
     earned;

1.4	 Develop and implement policies and procedures that provide reasonable assurance that it
     makes a withdrawal determination within 14 days of the student’s last date of attendance;

1.5	 Develop and implement policies and procedures that provide reasonable assurance that it
     will return Title IV, HEA program funds within 45 days after the date it determines that the
     student withdrew;

1.6	 Require the College to either submit a letter of credit, as required under 34 C.F.R.
     § 668.173(d), or provide documentation showing that, for each of the two most recent fiscal
     years, it returned unearned Title IV, HEA program funds within the timeframes described
     in 34 C.F.R. § 668.173(b) for more than 95 percent of its students eligible for such a return
     of funds; and

1.7	 Have its independent public accountant, as part of the next scheduled audit, confirm that
     the College’s performance of Recommendations 1.2 through 1.5 is in compliance with
     applicable requirements in the HEA and regulations.

College’s Comments

The College concurred that it did not use the correct withdrawal date to calculate the amount of
Title IV, HEA program funds earned by students and said that it has revised its policy for
returning Title IV, HEA program funds. However, the College

1.	 Disagreed with the liability amount we calculated and reported in the draft of this report. It
    estimated its liability as $32,179, stating that

   -   Some of our calculations did not include “funds that could have been disbursed,” 

   -   Some of our calculations did not use the correct number of days, 

   -   Two calculations did not use the correct institutional costs amount, 

   -   One calculation did not use the correct last date of attendance, and 

Final Report
ED-OIG/A07G0012                                                                       Page 6 of 17

   - Our calculations did not consider Title IV, HEA program funds already returned.

2.	 Asked us to identify cases in which it provided refunds to students in excess of our
    recalculated amount and to net those over-refunds against its under-refunds, reducing the
    amount of the College’s repayment liability.

3.	 Disagreed that the records for the 2002-2003 award year should be reviewed, because more
    than three years have passed, and the record retention requirements for those records have
    expired.

4.	 Disagreed that it is required to determine that students withdrew within 14 days of the
    students’ last date of academic attendance. The College stated

       The College believes that the “expectation” referenced in the Dear Colleague
       Letter is not the correct time period to apply, because it is inconsistent with the
       applicable Department of Education regulation, and the regulation is the
       controlling legal authority. The regulation, found at 34 C.F.R. 668.22(j)(2), states
       that an institution may take until 30 days after the earliest of the following dates
       to determine a student's withdrawal date: (1) the end of the payment period or
       period of enrollment, as appropriate, (2) the end of the academic year in which the
       student withdrew, or (3) the end of the educational program from which the
       student withdrew.

5.	 Disagreed that it made untimely refunds because, in most cases, the 30-day timeframe for
    returning funds begins 30 days after the end of the payment period. Using this timeframe as
    its criteria, the College determined it returned Title IV, HEA program funds late for only one
    student.

6.	 Asked us to revise Recommendation 1.5 from 30 days to 45 days, to reflect the timeframe
    established by the Higher Education Reconciliation Act of 2005 (HERA), which was
    effective July 1, 2006.

7.	 Advised us that our recommendation to request a letter of credit based on requirements in 34
    C.F.R. § 668.173(d) was not necessary because the College already has a letter of credit with
    the Department that is adequate to meet this requirement.

8.	 Disagreed with our recommendation that FSA consider fine proceedings against the College,
    stating that only a portion of its students received incorrect refunds and that its incorrect
    refunds were the result of a single mistake.
Final Report
ED-OIG/A07G0012                                                                       Page 7 of 17

OIG’s Response

We have made revisions to the draft report we provided to the College. Our responses to each of
the College's comments are provided below:

1.	 We reviewed our calculations that the College did not agree with the amount required to
    return to the Title IV, HEA programs, and, in some cases, we have revised the liability
    amount included in our recommendation. We agree with the College that

   -   In some cases, our calculations did not include funds that could have been disbursed: we
       agreed if the origination record provided had a dollar amount for the line “Loan Amount
       Approved,” but we did not agree if the origination record provided had zero for this line.
   -   In all cases noted by the College, our calculations did not include the correct number of
       days. Most of the differences occurred because we did not exclude the Thanksgiving
       break, which is a scheduled break of 5 consecutive days.
   -   In both cases noted by the College, our calculations used the incorrect institutional costs.
   -   In one case noted by the College, our calculation used the incorrect last date of
       attendance.
   -   In all cases noted by the College, the liability associated with individual students should
       be offset by Title IV, HEA program funds already returned. The College performed two
       refund calculations when students withdrew, the Department’s and its own. The College
       returned Title IV, HEA program funds under both calculations. The College’s reference
       to “Title IV funds already returned” are Title IV funds returned under the College’s
       refund policy.

2.	 Our recalculations showed that the College over-refunded $15.75 for one student. We do not
    agree that over-refunds can be netted against under-refunds, and we have not reduced our
    recommendation by this amount. Both over- and under-refunds are considered improper
    payments, and a return of funds for one student does not affect the need to return funds to the
    account of another student.

3.	 We do not agree that the requirement for the College to maintain records for the 2002-2003
    award year has expired. Our letter announcing this audit to the College, dated March 13,
    2006, stated our intent to audit the College’s “administration of Title IV funds for the 2002-
    2003, 2003-2004, and 2004-2005 award years.” Under 34 C.F.R. § 668.24(e)(3), the College
    is required to maintain records for the 2002-2003 award year until our audit is resolved:

            An institution shall keep all records involved in any loan, claim, or expenditure
            questioned by a title IV, HEA program audit, program review, investigation, or
            other review until the later of—
               (i) The resolution of that questioned loan, claim, or expenditure; or
               (ii) The end of the retention period applicable to the record.

4. We do not agree with the College's interpretation of the regulatory requirement, and we have
   not changed our finding. Because the College is required to take attendance, it must use that
Final Report
ED-OIG/A07G0012                                                                          Page 8 of 17

   information when determining a student has withdrawn under the requirements of 34 C.F.R.
   § 668.22(l)(3):

       The “date of the institution's determination that the student withdrew” is . . . [f]or a
       student who did not provide notification of his or her withdrawal to the institution,
       the date that the institution becomes aware that the student ceased attendance . . . .

   The preamble in the Notice of Proposed Rulemaking for these regulations, published on
   August, 6, 1999 (64 FR 43036), reflects that the 30-day timeframe was only intended for
   schools that are not required to take attendance, to provide a reasonable timeframe for an
   institution that “may not know about drop-outs until the institution checks its records at the
   end of an academic period.”

   Because the College is required to take attendance, it knows when a student has stopped
   attending class, unlike an institution that is not required to take attendance. It would be
   unreasonable for the College to ignore its attendance records for the purpose of delaying its
   return of Title IV, HEA program funds. Dear Colleague Letter GEN-04-03 allows the date
   of the College's determination that a student has withdrawn to be up to 14 days after the
   student's withdrawal date, unless there are “unusual circumstances.” The College has not
   documented any unusual circumstances that would support its need to make a determination
   after this 14-day period.

5.	 We do not agree that the College made refunds in a timely manner, and we have not changed
    our recommendation. Under 34 C.F.R. § 668.22(j)(1), “[a]n institution must return the
    amount of title IV funds for which it is responsible . . . no later than 30 days after the date of
    the institution’s determination that the student withdrew . . . .” The 30-day timeframe does
    not begin at the end of the payment period, as the College asserts; it begins on the date of the
    College’s determination that the student withdrew. Our calculation of the timeliness of the
    College’s refunds is based on a 30-day timeframe that begins on the actual date the College
    determined the student withdrew.

6.	 We agree that the HERA changed the timeframe for return of funds from 30 days to 45 days,
    and we have revised our recommendation.

7.	 We have not revised our recommendation. We have confirmed with the Department that
    Vatterott already has a letter of credit that currently is sufficient to meet this requirement;
    however, this letter of credit expires on October 31, 2007, and will not be sufficient to meet
    the requirement after that date.

8.	 We agree that, for the most part, the findings in this report were the result of a single error,
    specifically, the College's failure to use regulations appropriate for an institution required to
    take attendance. Based on this and our recalculation of the liability amount, we have
    removed from the report our recommendation that a fine be considered.
Final Report
ED-OIG/A07G0012                                                                           Page 9 of 17


                       OBJECTIVES, SCOPE, AND METHODOLOGY



The initial objectives of our audit were to determine, for the period July 1, 2004, through June
30, 2005, whether the College complied with the law and regulations governing (1) institutional
eligibility; (2) program eligibility; (3) return of Title IV, HEA program funds; (4) FSEOG, FDL,
and Pell disbursements; and (5) student eligibility. After performing preliminary fieldwork, we
refined the audit objectives to focus on (1) institutional eligibility, (2) program eligibility, and (3)
return of Title IV, HEA program funds.

To achieve our objectives, we

1.	 Reviewed selected provisions of the HEA, regulations, and FSA guidance applicable to the
    audit objectives;
2.	 Identified the amount of Title IV, HEA program funds ($4,765,876) the College received on
    behalf of 610 students during the 2004-2005 award year;
3.	 Reviewed the College’s history, organization, and catalogs;
4.	 Reviewed Vatterott College, Compliance Attestation Examination of the Title IV Student
    Financial Assistance Programs at Omaha, Nebraska for the years ended December 31, 2003
    and 2004, prepared by Almich & Associates, Certified Public Accountants, Irvine,
    California;
5.	 Obtained and reviewed evidence, including state authorization, institutional accreditation,
    and Department certification, supporting the College’s institutional eligibility;
6.	 Obtained and reviewed evidence, including program participation agreements, program
    descriptions in catalogs and applications, and program approval by a recognized accrediting
    agency, supporting the eligibility of the College’s programs;
7.	 Reviewed written policies and procedures and interviewed College officials to gain an
    understanding of the College’s internal control structure, policies, procedures, and practices
    applicable to the administration of its Title IV, HEA programs;
8.	 Reviewed student files (academic and financial aid) and attendance records for 222 students
    the College identified as having dropped out during the 2004-2005 award year to determine
    whether it used the correct withdrawal date; and
9.	 Reviewed the records for 67 students for whom the College returned Title IV, HEA program
    funds to determine if it (a) met the timeframe for the return of Title IV, HEA program funds
    and (b) made the withdrawal determination no later than 14 days after the student's
    withdrawal date.

We also relied, in part, on data provided to us by the College from its computer system. We
assessed whether the data were reliable by comparing the data with the names, social security
numbers, enrollment data, withdrawal dates (if applicable), and other information on paper
documents contained in the students’ financial aid files. Based on these comparisons, we
concluded that the College-provided data were sufficiently reliable for the purposes of our audit.

We performed our audit work at the College’s office in Omaha, Nebraska, and our
Chicago/Kansas City offices from March 2006 through October 2006. We discussed the results
Final Report
ED-OIGIA07GOO 12                                                                    Page 10 of 17

of our audit with College officials on October 30, 2006, and provided them with a draft of this
report on December 28,2006. Our audit was performed in accordance with generally accepted
government auditing standards appropriate to the scope of the audit described above.



                               ADl\1INISTRATlVE MATTERS


Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education Officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit" you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                      Lawrence A. Warder
                      Acting Chief Operating Officer
                      Federal Student Aid
                      U.S. Department of Education
                      Union Center Plaza, Room 112G 1
                      830 First Street, N.E.
                      Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                                     Sincerely,



                                                     Gary D. Whitman
                                                     Acting Regional Inspector General
                                                     for Audit

Attachment
Final Report 

ED-OIG/A07G0012                                                      Page 11 of 17 





            Attachment: Vatterott College Comments to Draft Report
Final Report
ED-OIG/A07G0012                                                                                                                           Page 12 of 17



                                                                                                                                    CORPORATE OFFICE
                                                                                              10257 SI. Chark'S Rock Rd . • SI. Ann, MO US.A. 1>.."'\07.1
                                                                                                                    (314)   ~27· 1 3J3
                                                                                                                                    • Fax: (31~) 427·]337
                                                                                                                                www. '·~l lerotl<oIIt~,·., ...t"




        January 29, 2007



        Mr. Richard J. Dowd
        Regional Inspector General for Audit
        U. S. Department of Education
        Office of Inspector General
        500 West Madison StTci:t, Suite 1414
        Chicago. It 60661

                                                Re: Audit Control Number ED-OIGfA07GOQ I2

        Dear Mr. Dowd:

        This is in response to the Draft Audit Report issued by your office for Vatterott College - Omaha
        Campus, dated December 28, 2006 (Draft Report). The Draft Rcport was provided to thc
        institution in advance of the final version to .seck ""Titlcn comments regarding the findi ng and
        recommendations. As directed by the Drall Report. in the section entitled Administrative Matters ,
        this response wi ll address each finding and recommendation contained in the Draft Report. stating
        OUT concurrencc or disagreement with each item and the corresponding corrective action planned
        or alternative corrective action proposed.


        FINDING -           T he College Did Not Comply with the Requirements Governing Ihe
                            Relurn of Tille IV, HEA Program Funds

        The Draft Report states: hDuring the 2004-2005 award year, the College did not (I) calculate the
        correct amount of Tille IV, HEA program funds that students earned, (2) determine students'
        withdrawal dates in atimcly manner, and (3) return Title IV, HEA program funds in a timely
        manner."


        Finding (I) - Incorr«t Calculation of the Amounllo Return to the Title IV, ilEA Progn ms

        The Collcge concurs that it used the incorrect withdrawal date to calculate the amount of Tille IV
        funds earned by SludenlS who withdrew from the institution. As stated in the Draft Report, this
        error occurred due to the requirement found in the Nebraska Administr.ttive Code that requires
        schools to take attcndance. Based on this provision in slate law, the Title IV regulalions require
        the College to calculate refunds of Tille IV funds as a schoollhat is "required to take attendance."


                                                              School Lout ......
              JoplIn. ",,0 , ~ City.)..IO · O"F.U"".)..IO · !ie. Ann.""O · SC.I<>«'PII.)..IO ' Springr..ld, MO . SuIIk"I Hilk,. MO
          Quincy. It · .,... ~~ lA ' Onu .... NE ' OUaham.o 01)', OK ' Tuls.o. OK . \'{odoit.>,. KS • CIt>..w.d, 01 1 • )..I..... phis.. TN
                              Austin 8u.inI'$s Golleg" • t:£roIe Cul""'i!l: • Court IIl-porting Ir&iMe 01     o..u...
Final Report
ED-OIG/A07G0012                                                                                          Page 13 of 17



                                                         - 2-


        As such, the College agrees that it should have used the student 's actual Last Dale of Attendance
        (LDA), rather than the 50% point of the lenn, to calculate the amount of Title IV program funds
        that the student earned.

        However, the College disagrees with the Draft Report's summary of the results and the amount of
        Tille IV program funds to be returned for the 86 students whose calculations were cited. The
        College has carefully reviewed the Return to Title IV calculation for those 86 students, and has
        identified 21 instances where it disagrees with the revised calculations perfonned by the audit
        team during the audit and reflected in the Draft Report.

        The fo llowing is a summary of the reasons the College disagrees with the calculation for the 21
        students in question (some students had more than one of these reasons).

            \. There are 11 students whose loans were originated prior to their LOA. In the 2004·2005
               award year, ifthe loan was originated prior to the LOA, the loan funds could be included
               in the RlT4 calculation as "funds that could have been disbursed." It appears the audit
               team did not include these amounts because there was not a signed promissory note in the
               student's file. However, during the year being audited, there was no requirement that there
               be a signed promissory note in the student's file. See the attached excerpt from Dear
               Colleague Letter GEN-05·1 6, which clearly explains the effective date for the requirement
               of needing a signed promissory note as October 27, 2005, attached as Appendix A to this
               response.

            2. There are 9 students where the incorrect number of days was used by the audit team in
               calculating the amount ofTitle IV aid earned. Most of these errors occurred as a result of
               not excludi ng the Thanksgiving holiday period from the number of days in the payment
               period. Because the Thanksgiving break. was a scheduled break. of 5 consecutive days in
               length (Wednesday through Sunday), it can be exc luded from the total number of days in
               the payment period, under ED's regulations at 34 C.F.R. 668 .22 (f)(2)(i). For other
               students, it appears the audit team used an incorrect date for the start dale of the term. The
               result in each of these cases is an increase in the amount ofTitle [V aid earned by the
               student.

           3. There are 2 students fo r whom the audit team used the incorrect institutional costs (tuition
               and fees) in the RlT4 calculation.

           4. There is I student where the audit team used an incorrect LOA, based on the College's
              attendance records.

        The spreadsheet included with this response (Appendix B) identifies with a yellow highlight each
        student where the school's recalculation of the amount ofTitle IV funds to be returned differs
        from the audit team's calculation of the RlT4 amount. In the next column of the spreadsheet
        (Reason) is a code linking each of those 21 students to one or more of the reasons described
        above, using the following legend:
Final Report
ED-OIG/A07G0012                                                                                         Page 14 of 17



                                                         - 3-

        L - Loan origination before LDA

        D - Incorrect number of days used for payment period

        C - Incorrect institutional charges used

        A - Incorrect LDA used

        Supporting documentation fo r each of these 21 students is included as Appendix C.

        In addition, the Draft Report did not take into consideration Title IV funds already returned by the
        College fo r 30 students. Copies of these students' ledger cards are also included in Appendix C.
        These amounts that have already been returned are identified on the Appendix B spreadsheet and
        highlighted in green (green highlighted fi gure incl udes Ti tle IV funds returned as a result of the
        original R2T4 calculation, plus these additional Title IV funds returned).

        Taking into consideration the corrected amount of Title IV funds earned on the 21 students
        described above, and the additional amounts already returned to the Title IV programs for the 30
        students described above, the College believes that the total liability figure stated in the Draft
        Report is overstated by $21,184, and should be reduced to $32,179.

        Note: The revised amount to be returned by the College fo r each student, as recalculated by the
        College, is the last column on the Appendix B spreadsheet and is highlighted in purple. There was
        one student identified during the College's review where the error we found increased the amount
        of Title IV funds to be returned (due to the audit team using an incorrect LDA for the student).
        The corrected amount for that student is highlighted in red in the last column of the Appendix B
        spreadsheet.

        The College would also like to ask the audit team whether they identified any students during their
        audi t work for whom the College OVER-refunded Title IV funds when students withdrew. If
        there were any such over-refunds, the College requests that this be stated explicitly in the final
        audit report, and that those amounts be netted against the under-refunds, to reduce the College's
        repayment liability.

        Finding (2) - Untimely Determination that Students Withdrew

        The College disagrees with the fi nding in the Draft Report that the College did not timely
        dctennine the date of withdrawal for 45 of the 67 students for whom Title IV program fu nds were
        returned. The Draft Report bases its fi nding on Dear Colleague Letter GEN-04-03 Revised
        (November 2004), in which the Department expressed an "expectation" that an institution that is
        required 10 take attendance would detennine a student's withdrawal date no later than 14 days of
        the student's last date of academic attendance.

        The College believes that the "expectation" referenced in the Dear Colleague Letter is not the
        correct time period to apply, because it is inconsistent with the applicable Department of
        Education regulation, and the regulation is the controlling legal authority. The regulation, found at
        34 C.F.R. 668.220)(2), states that an institution may take until 30 days after the earl iest of the
Final Report
ED-OIG/A07G0012                                                                                         Page 15 of 17



                                                        ·4·

        fo llowing dates to detennine a student's withdrawal date: (1) the end of the payment period or
        period of enrol lment, as appropriate, (2) the end of the academic year in which the student
        withdrew, or (3) the end of the educational program from which the student withdrew. In most
        case~ the earliest of these dates will be the end of the payment period/period of enrollment, and in
        some cases the earliest date will be the end of the academic year. We believe this is the
        appropriate lime period by which the audit tearn should measure the timeliness of the College's
        delennination of students' withdrawal dates.

        The College has reviewed the files of each of the 45 students for which the Draft ReJ))rt indicates
        the institution was late in detennining the student's withdrawal date, and has applied the correct
        time period from the regulations. In doing so, we have determined that for 44 of the 45 students,
        the College did determine the student's withdrawal date in a timely manner. Attached as
        Appendix D is a listing of each of these 45 students, the date of the time period used (e.g., end of
        payment period, end of academic year, etc.), and the date of the College's determination that the
        student had withdrawn. In only one case did the College not determine the student's last date of
        attendance by the deadline specified in the regulations.

        Finding (3) - Untimely Return of Title IV, HEA Program Funds

        The College disagrees with the finding that Title IV program funds were returned after the 30-day
        timeframe for I I students. As noted above, the 30-day timeframe for returning funds begins with
        the date of determination of the student's withdrawal, and the time period allowed to make that
        determination is specified in the regulation cited above. Based on the College's actual date of
        determination for each student, as permitted by the regulations, and counting 30 days from that
        date of determination, the College returned Title IV funds late for only 1 student. Attached as
        Appendix E is a listing of the II students cited by the audit team, the date of determination of each
        student's withdrawal, the 30 day deadline based on that date of determination, and the date the
        funds were returned.



        Recommendations

        1.1    Return S53,363 to the Department.

               The College disagrees with the amount to be returned to the Department based on the facts
               set forth in response to Finding (1). The recommendation should be modified to state the
               amount to be returned as $32,179.

        1.2    Review records (or all students who dropped out during the 2002-2003, 2003-2004,
               and 2005-2006 award yea rs; using the last date of academic attendance as the
               withdrawal date, recalculate the amounts o( Title IV, HEA program fund s that
               stud ents ea rned; and return the unearned amounts to the Departm ent.

               The College disagrees with this recommendation. The recommendation includes a
               recommendation that the College review records for the 2002-2003 award year, but the
Final Report
ED-OIG/A07G0012                                                                                       Page 16 of 17



                                                       - 5-

              Department's record retention requirement for Title IV records has now expired for that
              year. The College requests thal lhis recommendation be modified to recommend the
              College only review records for students who withdrew during the 2003-2004 and 2005·
              2006 award years.

        1.3   Revise its policy for returning Title IV, HEA program funds to ensure it uses tbe
              corred withdrawal dale in determining the amount orTitle IV, HEA program funds
              that students earned.

              The College concurs with this recommendation and enacted new procedures on July 13,
              2006. The new procedures are based on the understanding that according to the Nebraska
              Administrative Code, the College is required to record attendance on all students. The
              College now uses the actual last dale of attendance for the withdrawal dale in all instances.

        1.4   Develop and implement policies and procedurts that provide reasonable assurance
              that it makes a withdrawal determination within 14 days of the student's last date of
              attendance.

              The College disagrees with this recommendation because it is contrary to the time period
              allowed by the regulations for making the detennination ofa student's withdrawal, as
              discussed in response to Finding (2) above.

        1.5   Development and implement policies a nd procedures that provide reasonable
              assurance that it will return Title IV, HEA program fund s within 30 days aft er the
              date it determines that the student withdrew.

              The College concurs with the recommendation that refunds be made in accordance with
              the timeframe specified in the Higher Education Act and the Department of Education's
              regulations. However, in February 2006, as part of the Higher Education Reconci liation
              Act, the timeframe by which Title IV funds must be returned for a student who withdraws
              was changed from 30 days to 45 days from the Date of Detennination. Thi s change was
              effective July I, 2006. The College suggests the recommendation be modified to reflect
              the current requirement of 45 days instead of 30 days.

        1.6   Submit a letter of credit, as rtquired under 34 C.F.R. § 668.I73(d), or provide
              documentation showing that, for each of the two most recent fisc:al years, it returned
              unearned Title IV, HEA program fund s within the timeframes described in 34 C.F. R.
              § 668.1 73(b), for 5 percent or more of its students eligible for such a return of fund s.

              The 2004-2005 award year reviewed during this audit overlaps the most recent annual
              audit perfonned by the College's CPA. Late refunds were a finding in that audit and the
              requirement to submit a letter of credit due to late refunds was also recommended.
              However, due to the parent company's composite score under the Department's financial
              responsibi lity standards, the College's parent company has already posted a letter of credit
              in the amount of $8,236,31 0.00, covering al l of its colleges. In the Final Audit
              Detennination Letter on that compliance audit, the Department stated that the current letter
Final Report
ED-OIG/A07GOOI2                                                                                              Page 17 of 17




                                                             -6­

                  ofcredit satisfies any requirement for a letter ofcredit due to late refunds. Therefore, the
                  College believes this recommendation is not necessary, and requests that it be removed and
                  replaced with an acknowledgement that a larger letter ofcredit is already in place.

                  In addition, we note that the recommendation as stated in the Draft Report inverted the
                  percentage stated. Since the recommendation is for the college to substantiate the number
                  ofrefunds returned within the required timeframe, rather than those ''not returned timely,"
                  the percentage stated should be "at least 95 percent" rather than "5 percent or more."

           Finally, the Draft Report states on page 5that the OIG will recommend to the ChiefOperating
           Officer for FSA that she consider fine proceedings against the College due to the College's failure
           to return the correct amount ofTitle IV funds "for all students who withdrew" from the
           institution. First ofall, it is not correct that the College failed to return the correct amount of funds
           for all students who withdrew. Only aportion ofthe students received incorrect refunds, and this
           sentence implies that refunds were calculated wrong for all students. More importantly, however,
           the College requests that the fine recommendation be removed entirely from the final audit report.
           The College made asingle mistake, namely not understanding that Nebraska state law made the
           College aschool that was "required to take attendance" under the Title IV regulations. The
           College did not have any other problems with calculating refunds correctly, and the audit team did
           not identify any other problems with calculating refunds. Since there were no other problems
           identified with the College's calculation ofrefunds, the College does not believe that its one
           mistake should give rise to any fine by the Department. Moreover, the College cooperated fully
           with the audit team throughout the lengthy audit process and provided all information requested
           by the audit team, so the College does not believe there is anything related to its conduct during
           the audit that should give rise to a fine. The College thus requests that this additional
           recommendation be removed when the final audit report is issued.

           This concludes the College's response to the Draft Report. If you have any questions about
           anything in this response or the attached appendices, please contact our Corporate Director of
           Financial Aid, Mark Fowler.
